C:KLE
,Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
wvvw.cocklelegalbriefs.com
No. 19-337
REGENTS OF THE UNIVERSITY OF MINNESOTA,
Petitioner,
v.
LSI CORPORATION, ET AL.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the llth day of October, 2019, send out
from Omaha, NE 4 package(s) containing 3 copies of the BRIEF OF THE ASSOCIATION OF PUBLIC AND
LAND-GRANT UNIVERSITIES AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
JOSHUA S. JOHNSON
Counsel of Record
VINSON & ELKINS LLP
2200 Pennsylvania Ave.,
NW, Suite 500 West
Washington, DC 20037
(202) 639-6500
joshjohnson@velaw.com

Subscribed and sworn to before me this 11th day of October, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
wiftra--s111"111111-PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38839

Kevin K. Russell
Goldstein and Russell, P.C.
7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
krussell@goldsteinrussell.com
Counsel for Petitioner
Mark Simon Davies
Orrick, Herrington & Sutcliffe LLP
Columbia Center
1152 15th Street NW
Washington, DC 20005
(202) 339-8631
mark.davies@orrick.com
Counsel for Respondents Ericsson Inc. and Telefonaktiebolaget LM Ericsson
Adam Karl Mortara
Bartlit Beck LLP
54 W. Hubbard Street
Chicago, IL 60654
(773) 750-7154
adam.mortara@bartlit-beck.com
Counsel for Respondent Gilead Sciences, Inc.
David E. Sipiora
KILPATRICK TOWNSEND & STOCKTON LLP
1400 Wewatta Street, Suite 600
Denver, Colorado 80202
(303) 571-4000
dsipiora@kilpatricktownsend.com
Counsel for Respondents LSI Corp. and Avago Technologies U.S. Inc.

